\

LI

\

i

v xiaNaddv
/

/

NOTICE: NOT FOR OFFICIAL PUBLICATION.
UNDER ARIZONA RULE OF THE SUPREME
COURT 111(c), THIS DECISION IS NOT
PRECEDENTIAL AND MAY BE CITED ONLY AS
AUTHORIZED BY RULE.
IN THE
ARIZONA COURT OF APPEALS
DIVISION ONE
US BANK NATIONAL ASSOCIATION,
Plaintiff/Appellee,
v.
AUDIE JAY REYNOLDS, Defendant/Appellant. No.
1 CA-CV 18-0689
FILED 12-26-2019
Appeal from the Superior Court in Navajo County
No. S0900CV201800002
The Honorable Robert J. Higgins, Judge
AFFIRMED

18

COUNSEL
Bryan Cave Leighton Paisner LLP, Phoenix By Sean
K. McElenney, Daniel P. Crane Counsel for
Plaintiff/Appellee
Audie Jay Reynolds, Scottsdale
Defendant /Appellant
MEMORANDUM DECISION
Judge Kent E. Cattani delivered the decision of the
Court, in which Presiding Judge Maria Elena Cruz
and Judge Michael J. Brown joined.
US BANK v. REYNOLDS
Decision of the Court
CATTANI, Judge:
US BANK v. REYNOLDS Decision of the Court
^1 Audie Reynolds appeals the superior court’s
judgment finding him and his wife guilty of forcible
detainer

and

Association,

as

awarding
Trustee

U.S.
for

Bank

National

Residential Asset

Mortgage Products, Inc., Mortgage Asset-Backed
Pass-Through Certificates, Series 2006-NC2 (“US
Bank”) immediate and exclusive possession of a
residence in Overgaard. For reasons that follow, we
affirm.

19

FACTS AND PROCEDURAL BACKGROUND
1f2

In

December

2017,

US

Bank

purchased

Reynolds’s residence at a trustee’s sale and promptly
recorded the trustee’s deed. Later that month, US
Bank mailed and personally served Reynolds with a
notice to vacate the premises. Reynolds did not leave,
and US Bank filed this forcible entry and detainer
(“FED”) action.
f3 Reynolds answered US Bank’s complaint with
general denials, pointed out that the complaint listed
the wrong entity as successor trustee, and proffered
alleged defects in the trustee’s sale as affirmative
defenses. US Bank moved to amend the complaint to
reference

the

correct

successor

trustee

and

separately moved for judgment on the pleadings.
Reynolds did not file a new answer, but rather opted
to rely on oral argument at the forcible detainer
hearing.

20

f 4 Relying on US Bank’s superior right to possession
under the trustee’s deed, the superior court found
Reynolds and his wife guilty of forcible detainer and
entered judgment in favor of US Bank for immediate
possession of the property. The court later stayed the
judgment pending appeal, conditioned on Reynolds
paying into court the rental value of $1,000 per
month. See A.R.S. § 12-1182(b). Reynolds appealed.
DISCUSSION
Reynolds argues the superior court erred by
entering judgment in favor of US Bank. First, he
claims

that

US

Bank

was

not

“executor,

administrator, guardian, bailee, or grantee” of the
trustee’s deed and thus could not prosecute the FED
action as real party in interest. But US Bank—
specifically, “U.S. Bank National Association,

21

as Trustee for Residential Asset Mortgage Products,
Inc.,

Mortgage

Certificates,

Asset-Backed

Series

Pass-

2006-NC2”—was

Through
expressly

designated as grantee under the trustee’s deed. And
as owner of the property by virtue of the trustee’s
deed, US Bank established its right to possession.
See Carrington Mortg. Servs. LLC v. Woods, 242
Ariz. 455, 457, | 12 (App. 2017).
If6 Second, Reynolds urges that defects in the
trustee’s sale render the trustee’s deed invalid and
thus

undermine

US

Bank’s

asserted

right

to

possession. But the merits of US Bank’s title are
beyond the scope of an FED action. See A.R.S. § 121177(A) (“[In an FED action], the only issue shall be
the right of actual possession and the merits of title
shall not be inquired into.”); see also Curtis v. Morris,
186 Ariz. 534, 534 (1996). The only issue was the
right of possession, and as described above, US Bank
had the right of possession under the trustee’s deed.

22

f7 Any challenge to the trustee’s sale—such as
Reynolds’s claim that the successor trustee was not
authorized to act as a trustee under Arizona law—
must be pursued before the sale has been completed;
the trustor may not challenge the completed sale
based on pre-sale objections. See A.R.S. § 33-811(C);
BT Capital, LLC v. TD Serv. Co. of Ariz., 229 Ariz.
299, 301, t 11 (2012). And here, Reynolds apparently
attempted to halt the trustee’s sale before it went
forward based on similar objections to the successor
trustee, but he was unsuccessful. Reynolds v. Ocwen
Loan Servicing, LLC, 719 Fed. Appx. 673 (9th Cir.
2018) (mem.), aff’g Reynolds v. Ocwen Loan Servicing
LLC, CV-17-08123-PCT-JJT, 2017 WL 4653037 (D.
Ariz. Aug. 18, 2017). To the extent he now attempts
to raise new issues, the trustee’s deed raised a
presumption that the sale comported with statutory
requirements, see A.R.S. § 33-811(B), and Reynolds
has

offered no basis to overcome

either this

presumption or waiver under § 33-811(C).

23

118 Finally, Reynolds’s challenge to the successor
trustee is factually flawed. He notes that the
trustee’s deed is signed by “C. Scott ‘Trustee Sale
Assistant’” and argues that “Assistant Trustees” are
not qualified to conduct trustee’s sale under Arizona
law. But the trustee was “Western Progressive —
Arizona, Inc.,” not “C. Scott.” See also Reynolds, 719
Fed. Appx. 673. “C. Scott” did not substitute as
trustee, but rather was a “duly-authorized” agent
signing on behalf of the corporate successor trustee.
See Samaritan Found, u. Goodfarb, 176 Ariz. 497,
502 (1993) (noting that a corporation “can only act
r

through its agents”); Best Choice Fund, LLC v. Low
& Childers, P.C., 228 Ariz. 502, 510, 1f 26 (App. 2011)
(as amended). Western Progressive remained the
successor trustee, and Reynolds’s challenge to that
entity’s authority to act as a trustee under Arizona
law has already been resolved against him. See
Reynolds, 719 Fed. Appx. 673 (affirming dismissal of
Reynolds’s challenge to the trustee’s sale “because

24

Reynolds failed to allege facts sufficient to show that
Western Progressive- Arizona, Inc. was not a proper
trustee

authorized

to

initiate

the

non-judicial

foreclosure process under Arizona state law”).
CONCLUSION
f 9 We affirm the forcible detainer judgment. US
Bank requests an award of attorney’s fees on appeal
but cites no authority for its request. Although we
may award fees as a sanction for a frivolous appeal,
in an exercise of discretion, we decline to do so. As
the prevailing party on appeal, US Bank is entitled
to an award of costs upon compliance with ARCAP
21.

25

CV201800002
IN THE SUPERIOR COURT OF THE STATE OF
ARIZONA
IN AND FOR THE COUNTY OF NAVAJO
US BANK NATIONAL ASSOCIATION
Plaintiff,
Vs.
Audie J. Reynolds, et al.,
Defendants.
After a review of the pleadings and a final hearing on
June 14, 2018, the Court submits the following
ruling. Out of an abundance of caution the court
allowed the maximum time for Mr. Reynolds to
Answer

the

Plaintiffs

Motion

to Amend

the

Complaint. Mr. Reynolds chose not to Answer in
writing but to simply “Answer” in Court via oral
argument on June 14, 2018. Based on the pleadings,
oral argument at the hearing and exhibits entered at
that hearing, the court finds the following:
1. A recorded “Trustee’s Deed Upon Sale” dated
12/7/17 was properly entered into as evidence as

27

Exhibit 1 and the document accurately describes the
property which is the subject of this litigation.
2. A “Notice to Vacate” was served on Mr. Reynolds
via certified letter and regular first class mail letter
dated December 14, 2017.
3. Despite the Trustees Deed Upon Sale and the
Notice to Vacate, Mr. Reynolds has not vacated the
property.
4. Mr. Reynolds has made untimely and irrelevant
attacks on the Trustee’s Deed Upon Sale. See A.R.S.
33-811(c).
5. Based on the foregoing, Plaintiffs are entitled to a
judgment on the pleadings. The Court therefore
enters the following Order:
A. That each Defendant is found guilty of forcible
detainer:
B. That the Defendants and all persons occupying
the Property are ordered to vacate the Property
immediately and that Plaintiff is awarded immediate

28

and exclusive possession thereof. That in the event
the Defendants refuse to obey said order and upon
the request of Plaintiff, the Clerk of the Navajo
County

Superior Court shall issue a

Writ of

Restitution after the fifth calendar day following the
date of the judgment commanding the Sheriff of
Navajo

County, Arizona to execute the Writ of

Restitution and assist in removing Defendants from
the property.
C. That Plaintiff is awarded reasonable rental value
of the

Property during the period of

time of

Defendants forcible detainer, in an amount to be
determined at the preliminary hearing or trial, based
upon the amount of the monthly payment due under
the Note or the fair rental value, whichever is higher,
from the date of the Trustee’s Sale pro-rated until
the date of the judgment:

29

D. That Plaintiff is awarded its reasonable attorney’s
fees incurred herein in an amount not to be less than
$750.00.
E. That Plaintiff is awarded its court costs incurred
and accruing costs; and
F. For interest on the outstanding balance amount of
the judgment at the rate of 10% per annum until
paid.
Done this 7th day of August, 2018

Honorable Robert Hiseins
Navajo County Superior Court
Copies of the foregoing mailed/delivered this 14th day
of August, 2018 to:
Joseph J. Trirello
Audie Reynolds
P.O. Box 13442
Scottsdale, AZ
85267
Case Flow Manager

30

ii.

■i

X£

auiajdng Buozuy

0 XIQNaddV

State of Arizona
Robert Brutinel, Chief Justice
Janet Johnson, Clerk
Arizona State Court Building
1501 West Washington Street, Suite 402
Phoenix Arizona 85007
Telephone (602) 452-3396

August 26, 2020
RE: US BANK NATIONAL ASSOCIATION v AUDIE
JAY REYNOLDS Arizona Supreme Court No. CV-200005-PR

Court of Appeals, Division One No. 1 CA-CV 18-0689
Navajo County Superior Court No.
S0900CV201800002

GREETINGS:
The following action was taken by the Supreme
Court of the State of Arizona on August 26, 2020, in
regard to the above-referenced cause:

ORDERED: Petition for Review = DENIED.

32

i

A panel composed of Vice Chief Justice Timmer and
Justice Bolick, Justice Lopez and Justice Beene
participated in the determination of this matter.
Janet Johnson, Clerk
To:

Audie Jay Reynolds
Sean K McElenney
Daniel P Crane
Amy M Wood
ga

33

PROOF OF SERVICE
I Audie Reynolds, declare on this date as required by
Supreme Court Rule 29 I have served the enclosed
PETITION FOR A WRIT OF CERTIORARI on each
party to the above proceeding or that party’s counsel,
and on every other person required to be served, by
depositing

an

envelope

containing

the

above

documents in the United States mail properly
addressed to each of them and with first-class
postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar
days. The names and addresses of those served are
as follows:
Counsel: Eric L. Cook (#020797)
ecook@zbslaw.com
Joseph J. Tirelo (#033371)
jtirelo@zbslaw.com
ZIEVE, BRODNAX & STEELE, LLP
3550 North Central Avenue, Suite 625 Phoenix,
Arizona, 85012 (602) 282-6188
Attorneys for Plaintiff
Audie Reynolds
/s/ Audie Reynolds

34

k

